Case: 20-50651

Document: 00515973395 Page: 1

Date Filed: 08/11/2021

iptate5 Court of Zippeat5
for tbe jfiftb Circuit
United States Court of Appeals
Fifth Circuit

No. 20-50651

FILED
August 11, 2021

FRANK HENDERSON BROWN,

Lyle W. Cayce
Clerk
Petitioner—Appellant,

versus
BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:18-CV-1054

ORDER:
IT IS ORDERED that appellant's motion for clarification of the
Court's order denying a certificate of appealability is GRANTED. The
court's previous order is withdrawn, and it is substituted with the following.
Frank Henderson Brown is currently serving a sentence for a Texas
conviction for possession of a firearm as a felon. He seeks a certificate of
appealability to challenge the district court's denial of his application for writ
of habeas corpus under 28 U.S.C. § 2254.

Case: 20-50651

Document: 00515973395 Page: 2 Date Filed: 08/11/2021
No. 20-50651

Brown asserted twenty-six claims for relief before the district court—
twenty of which he now seeks to appeal. His claims can be summarized
broadly as claims of trial court error, prosecutor error, ineffective assistance
of trial counsel, and ineffective assistance of appellate counsel. The district
court rejected each claim and decliried to issue a certificate of appealability.
We may issue a certificate of appealability "only if the applicant has
made a substantial showing of the denial of a constitutional right." 28 U.S.C.
§ 2253(c)(2). This means that for each of the twenty claims on which he

wants to appeal, Brown must "demonstrate that reasonable jurists would find
the district court's assessment of the constitutional claims debatable or
wrong." Miller-El v. Cockrell, 537 U.S. 322, 338 (2003). For the one claim of
the twenty raised on appeal that was dismissed as procedurally defaulted —
Brown's claim that the district court erred by allowing the prosecutor to
argue facts not in evidence during closing argument—Brown must also show
"that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling." Slack v. McDaniel, 529 U.S. 473, 484
(2000). Brown has not shown that jurists of reason could debate the district
court's assessment of his constitutional claims or the district court's
dismissal of, one of his claims as procedurally barred.
IT IS ORDERED that Appellant's motion for a certificate of
appealability is DENIED.
I sl Jennifer Walker Elrod
JENNIFER WALKER ELROD
United States Circuit Judge

